HARVARD LAW SCHOOL
L AWRENCE L ESSIG
R OY L. F URMAN P ROFESSOR OF L AW AND L EADERSHIP
1563 M ASSACHUSETTS A VE
C AMBRIDGE · M ASSACHUSETTS · 02138
T EL . (617) 496-8853
LESSIG @ LAW . HARVARD . EDU

October 15, 2019

The Honorable Scott Harris
Clerk of the Court
Supreme Court of the United States
One First Street, NE
Washington, DC 20543
Re: Chiafalo v. Washington, No. 19-465

Dear Mr. Harris:
I am counsel of record for respondent in the abovereferenced case. Pursuant to Rule 37.2(a) of the Rules of this
Court, respondent hereby grants blanket consent to the filing of
amicus curiae briefs in support of either or no party, provided that
the amicus curiae brief otherwise complies with the Rules of this
Court.

Sincerely,

Lawrence Lessig

1

